The Library of Congress
Office of the Inspector General




                   Library Services
     Congressional Research Service
                       Law Library

                      Reading Room Space
                        Allocations Should
                           Be Reevaluated


              Final Audit Report No. 2003-PA-104
                                      March 2004
UNITED STATES GOVERNMENT                                              LIBRARY OF CONGRESS

Memorandum                                                        Office of the Inspector General

TO:            James H. Billington                                                 March 31, 2004
               Librarian of Congress

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:       Reading Room Space Allocations Should Be Reevaluated
               Final Audit Report No. 2003-PA-104


This transmits our final audit report prepared by the Office of the Inspector General, Office of
the Librarian. The Executive Summary begins on page i, and complete findings and
recommendations appear on pages 6 to 14.

Library Services, the Congressional Research Service, and the Law Library generally concur
with the report’s recommendations. The Service Units’ responses to our draft report are briefly
summarized after individual recommendations appearing on pages 7, 8, 13 and 15. The
complete responses are included as appendices D, E, and F.

We request that you appoint a committee to standardize a methodology and conduct the analyses
recommended in the report, and develop an action plan in accordance with LCR 1519-1, Audits
and Reviews by the Office of the Inspector General, Section 4.B. The plan should be completed
within 30 calendar days and include specific actions to be taken in response to the audit report,
including milestones and implementation dates.

We appreciate the cooperation and courtesies extended by the Service Units during the audit.


cc:   Deputy Librarian
      Associate Librarian for Library Services
      Director, Congressional Research Service
      Law Librarian
The Library of Congress                                   Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                   March 2004



                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY…………………………………………………………………… i

INTRODUCTION………………………………………….………………………………....                                            1

BACKGROUND……………………………………………………………………………...                                               2

OBJECTIVES, SCOPE, AND METHODOLOGY………...…………………………………                                    4

FINDINGS AND RECOMMENDATIONS……...…………………………………………... 6

I.    Library Services and the Law Library Should Obtain
      More Accurate and Useful Reading Room Usage Data………………………………...                    6
      A. The Accumulation of Library Services and Law
           Library Reference Statistics Should Be Improved………………………………...                6
           Recommendations………………………………………………….…………...…                                   7
           Summary of Service Unit Responses and OIG Comments…...…………………...              7
      B. Library Services and the Law Library Should Count
           Reading Room Patrons in a More Useful Manner...……………………………....                7
           Recommendations…...…………………………………………………………….                                   8
           Summary of Service Unit Responses and OIG Comments………………………..                 8

II.   Library Services, CRS, and the Law Library
      Should Analyze Reading Room Requirements………………………………………….                          9
      A. Reading Room Space Should Be Used More Efficiently…………………………                    9
           Recommendations…...…………………………………………………………….                                   12
           Summary of Service Unit Responses and OIG Comments………………………..                 13
      B. The Service Units Should Reconsider Saturday Reading Room Hours…………..           14
           Recommendations………...……………………………………………………….                                   14
           Summary of Service Unit Responses and OIG Comments…………………...…...              15

APPENDICES
    A. Annual In-Person Reference Statistics by Reading Room, FY 1993-2002…….....        16
    B. In-Person Reference Statistics in Five-Year Intervals, FY 1987-2002….………...       17
    C. Reading Room and Information Center Descriptions…………..……………..…..                  18
    D. Congressional Research Service’s Response to Draft Report……..………………               21
    E. Library Services’ Response to Draft Report……………………………..…….….                      25
    F. Law Library’s Response to Draft Report…………………….……………………                           27
The Library of Congress                                             Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                             March 2004


                                   EXECUTIVE SUMMARY

The Library's mission is to make its resources available and useful to the Congress and the
American people and to encourage greater use by the general public through programs that
stimulate interest, increase knowledge, and encourage more citizens to use the collections on-site
and electronically. On-site, the collections can be accessed from 23 reading rooms and
information centers that are organized by subject, language, and material format. Library
Services has 20 reading rooms/information centers, the Congressional Research Service (CRS)
has two, the Jefferson Congressional and LaFollette, and the Law Library has one. The manner
in which the Library’s resources are made available is constantly changing and improving
through the use of new and emerging technologies. Unparalleled resources are shared via the
Library’s websites which contain more than 8.5 million items and growing, and the Library
continues to expand its electronic gateway.

The objective of our audit was to determine whether there is underutilized reading room space
given the dramatic growth in electronic information and improved access. We found that, in
general, Library Services and the Law Library accumulate inconsistent and inaccurate reference
statistics and inconsistent patron data to make informed assessments of reading room utilization.
However, while there are limitations on the usefulness of the statistics and data collected, there is
evidence of a substantial decline in the number of patrons making in-person visits to the Library.

There is some consideration within the Library for better utilizing reading room space. The Law
Library recently converted some of its reading room space to offices and CRS will examine the
LaFollette reading room and reconsider its needs. Library Services has implemented some
modifications to its reading rooms over the last few years such as closing the Machine Readable
Collections Reading Room and incorporating this activity into existing rooms, and merging
science and business into one reading room. However, there needs to be a concerted Library-
wide effort to better prepare for the rapidly changing space requirements associated with
operating in a digital environment. The Service Units should establish standard criteria for
analyzing utilization, develop a structured requirements analysis to determine reading room floor
space needs, and consider modifying or reallocating underutilized space for offices or collections
storage and/or consolidating underutilized rooms. Also, Saturday reading room hours of
operations should be reevaluated.

Analysis of requirements and better utilization of space could result in significant economy and
efficiency by reducing expansion and/or consolidation of off-site facilities to Capitol Hill. The
following paragraphs explore these issues further.

Library Services and the Law Library Should Obtain
More Accurate and Useful Reading Room Usage Data

A long-standing pattern of inconsistent reading room statistical practices exists in these Service
Units. Internal committees have reviewed the accumulation and reporting of reference statistics
and several useful changes have been made, however, Library Services and the Law Library
continue to accumulate and report inconsistent and inaccurate information. The use of a uniform




                                                  i
The Library of Congress                                           Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                           March 2004


sampling methodology would improve the reliability and efficiency of reference counts and
create greater uniformity across reading rooms (see page 6).

Also, the Law Library and Library Services expend considerable effort performing hourly patron
counts that produce inconsistent information. Not all reading rooms count hourly and therefore
management cannot compare data. Some personnel are unclear on the definition of a patron, and
there are varying methods for measuring other reading room activity. Inconsistent methods
make it more difficult to analyze resource requirements. The Law Library and Library Services
should utilize a non-invasive sign-in form or other acceptable method to measure reading room
utilization. The methodology should provide data to analyze peak demand and usage per time of
day (see page 7).

Library Services, CRS, and the Law Library
Should Analyze Reading Room Requirements

For many years, most of the Library’s reading rooms have been in the same physical location
and space requirements have not been formally reevaluated, although the number of visiting
patrons is continuously declining. According to the Library’s statistics, the number of in-person
reference questions has steadily declined from over 1.2 million in fiscal year 1988 to
approximately 425 thousand in fiscal year 2002, a reduction of 65 percent.

In-person visits in some reading rooms/information centers have declined more rapidly than in
others. The Asian, Microform, LaFollette, CRS Jefferson Congressional, Main, Geography and
Map, and Prints and Photographs reading rooms have experienced some of the largest declines.
Figure 4 on page 9, Table 2 on page 10, and Appendices A and B on pages 16 and 17 show the
decline in patron counts and reference questions over various time periods.

The patron decline can be attributed in part to alternative sources of information. Alternative
sources include local, regional, and university libraries that share books and information through
the Online Computer Library Center. We were told that some Area Studies patrons that formerly
came to the Library’s reading rooms for foreign newspapers now access these newspapers
online. Also, some information that was difficult to access in the past (like the Gutenberg Bible)
is now available online. CRS, the Law Library, and Library Services should perform structured
requirements analyses to determine reading room floor space requirements (see page 9).

The Saturday operations for most of the reading rooms are very busy, however the Microform,
LaFollette, and Performing Arts reading rooms show limited use. Adjusting the reading room
hours of operation could reduce personnel expenses. The Library should reevaluate
requirements for Saturday operations (see page 14).

In their responses to the draft report, the Congressional Research Service and Law Library
generally agreed with our findings and recommendations. Library Services’ response did not
specifically address the draft report’s recommendations. However, they did provide a response
to our notice of findings and recommendations (our preliminary conclusions communicated last
Fall), and concurred with our recommendation to develop a structured requirements analysis to
determine reading room space requirements. Library Services provided additional comments on



                                                ii
The Library of Congress                                         Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                         March 2004


the draft report. We made changes to the report where necessary to address their concerns. The
written responses from the three Service Units are included as Appendices D, E and F of this
report.




                                              iii
The Library of Congress                                                      Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                      March 2004


                                             INTRODUCTION

This report presents the results of our audit of floor space considerations in the Library’s reading
rooms. The Library has in its collections well over 125 million items, in hundreds of different
languages and virtually every format including books, prints, drawings, government documents,
photographs, microforms, films, sound and video recordings, manuscripts, and other formats.
The collections can be accessed from 23 reading rooms and information centers comprising
about 143,949 square feet of floor space and are organized by subject, language, and material
format as shown in Table 1.

               Table 1. Floor Space Allocations in Reading
                        Rooms and Information Centers

                  Reading Rooms and Information Centers                 Approximate
                                                                       Square Footage
                         African & Middle Eastern                           3,682
                         American Folklife Center                          1,680
                                   Asian                                   3,685
                            Business Reference                             10,030
                            Children's Literature                          Note 1
                            Computer Catalogue                             3,195
                                 European                                  3,667
                             Geography & Map                               5,738
                                  Hispanic                                 4,670
                          Jefferson Congressional                          1,610
                        LaFollette (Congressional)                          4,215
                           Law Library (Note 2)                           17,897
                        Local History & Genealogy                           2,370
                                   Main                                   31,585
                                 Manuscript                                9,087
                                 Microform                                 2,038
                       Motion Picture & Television                          3,710
                      Newspaper & Current Periodical                       10,000
                              Performing Arts                              8,100
                          Prints and Photographs                          12,425
                     Rare Book & Special Collections                        3,500
                     Recorded Sound Reference Center                       1,065
                             Science Reference                             Note 3
                                   Total                                  143,949
                 Note 1: Square footage is included in the Main reading room space.
                 Note 2: The Law Library has reallocated approximately one-half of its reader area for construction
                 of office space and relocation of collections.
                 Note 3: Square footage is included in the Business Reference reading room space.




                                                        1
The Library of Congress                                                    Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                    March 2004


Library reading rooms have various access restrictions. The public reading rooms are open to all
researchers above high school age possessing a Library reader identification card. High school
students are allowed to access the public reading rooms if they meet certain conditions.1 CRS’s
Jefferson Congressional and LaFollette reading rooms are not open to the public.

The reading rooms vary in size and the type of equipment required by patrons to perform
research. Many have computer workstations that are available for catalog, database, and Internet
searching while others contain special equipment for copying large maps, viewing and printing
the Library’s approximately 6 million microform items, and other uses. Figures 1 below and 2
(next page) show digital images of the Main and Geography & Map reading rooms respectively.

          Figure 1. Main Reading Room - August 13, 2003




                                             BACKGROUND

Disparity in the Library’s methodology of collecting reading room statistics has been the subject
of several internal Library studies dating back 30 years. A 1972 report urged the Library to keep
statistics in a uniform manner. In 1990, an internal committee conducted an extensive survey of
reading room statistics and reported that the Library’s use of multiple methods of reporting
readers was especially troublesome. The report recommended using simple sampling techniques
that could produce more valid figures with considerably less effort. In 1996, the Library’s

1
  In September 2003 a Library task force issued a memorandum recommending that current restrictions be relaxed
for minors 16 to 18 years of age.



                                                       2
The Library of Congress                                                        Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                        March 2004


Reference Policy Committee made additional recommendations and developed a revised form to
report quarterly statistics. Most reading rooms presently use this form.

         Figure 2. Geography & Map Reading Room - November 24, 2003




In 1999, the Library formed the Reading Room Use Statistics Committee to address statistics for
all of the Library’s reading rooms. The committee made recommendations regarding
consistency issues, periodic sampling, and the need for all reading rooms to conduct hourly
reader counts. The Committee also reported that there was an assumption that lower statistics
would result in fewer resources and that staff in a few reading rooms had devised methods of
counting that could be characterized as “unrestrained.”

New initiatives through these groups were introduced to provide patrons more convenient access
to the Library’s resources. In fiscal year (FY) 2002, the Library launched QuestionPoint, a new
online reference service, in collaboration with the Online Computer Library Center.2 The
QuestionPoint service provides library users with access to a growing collaborative network of
reference librarians in the United States and around the world though the user’s local library
website. Questions can be asked at any time of day or night and be directed to a specific reading
room. A staff member answers the question online or forwards the question to another
participating library. This service, which is available to libraries by subscription, is free for
library patrons and is increasingly popular. As shown in Figure 3 (next page), the number of

2
  Founded in 1967, the Center is a nonprofit, membership, computer library service and research organization
dedicated to the public purposes of furthering access to the world's information and reducing information costs.
More than 45,000 libraries in 84 countries and territories around the world use the Center’s services to locate,
acquire, catalog, lend, and preserve library materials.



                                                          3
The Library of Congress                                                                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                                March 2004


monthly reference questions has increased from 1,163 e-mails in its inception in April 2002, to
4,200 e-mails in October 2003.

                 Figure 3. Monthly QuestionPoint E-mail Volume


                   8000
                   7000
                   6000
                   5000
                   4000
                   3000
                   2000
                   1000
                       0
                          2

                                  02


                                            02


                                                     2


                                                             2

                                                                     03


                                                                              3

                                                                                      03


                                                                                                03


                                                                                                         3
                       r-0




                                                   -0


                                                           -0




                                                                           r-0




                                                                                                       -0
                                n-


                                        g-




                                                                   b-




                                                                                    n-


                                                                                            g-
                                                 ct




                                                                                                     ct
                                                         ec
                     Ap




                                                                          Ap
                              Ju




                                                                                  Ju
                                       Au




                                                                 Fe




                                                                                           Au
                                                 O




                                                                                                     O
                                                         D




Established in FY 2001, the Library’s Office of Strategic Initiatives is responsible for the
strategic planning for the Library’s digital initiatives. Digital conversion activities are taking
place as the product of an integrated program between the Library and other repositories. At the
end of FY 2003, more than 8.5 million items from the Library and other institutions were
available online or in digital archives.

A chat reference service is another new facet of increasing access that the Library provides to its
collections and expertise via new technologies. The chat service enables library patrons to
discuss their information needs directly with distant reference librarians through the Internet.

                           OBJECTIVES, SCOPE, AND METHODOLOGY

The overall objective of our audit was to determine whether floor space in the Library’s reading
rooms is adequately utilized. Specific steps taken to accomplish our objective include:

        •      Visiting the 23 reading rooms/information centers and three CRS research centers;
        •      Analyzing the Library’s statistics for reading room usage by patrons;
        •      Interviewing Library Services, Law Library, CRS, and Facility Services personnel;
        •      Observing reading room activities;
        •      Analyzing reading room square footage space and viewing the reading room
               layouts;
        •      Reviewing prior Library internal committee reports;
        •      Analyzing patron usage on Saturdays including observing operations;
        •      Analyzing the hourly patron counting methodology;



                                                                 4
The Library of Congress                                           Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                           March 2004


        •      Comparing actual patron attendance to hourly counts. We took a judgmental
               sample of five reading rooms and observed the number of patrons over a three-week
               period. We compared these results to the hourly counts preformed by reading room
               personnel; and
        •      Evaluating the accumulation, recording, and use of reference statistics.

Our fieldwork was performed from April to August 2003. Our audit covered reading room
activity from 1979 to the current period. We conducted exit conferences with CRS on July 8,
2003, Library Services on August 28, 2003, and the Law Library on October 31, 2003. The audit
was conducted in accordance with Government Auditing Standards issued by the Comptroller
General of the United States and LCR 1519-1, Audits and Reviews by the Office of the Inspector
General, October 18, 1999.

All patron numbers and reference statistics in this report were provided by Library management
and could not be audited because of internal control weaknesses in the design of the Library's
overall counting methodology and the lack of documentation to evaluate data accuracy.
Specifically, the Library’s methods of collecting statistics among reading rooms are inconsistent
and changing.

Although the usefulness of the Library’s reading room statistics is limited, we believe the
information is sufficiently valid to demonstrate general trends of decreasing in-person Library
visits.




                                                5
The Library of Congress                                            Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                            March 2004


                             FINDINGS AND RECOMMENDATIONS

Overall we found that there has been a significant decline in the number of patrons visiting the
Library’s reading rooms/information centers in recent years, and consequently, there may be an
underutilization of reading room/information center floor space. However, the data the Library
collects to analyze reading room resource needs is not always consistent and useful. Therefore,
our findings and recommendations focus on improving the data, then analyzing resource
requirements and reallocating reading room floor space to offices or collections storage based on
cost/benefit and other considerations. This includes combining underutilized reading rooms. We
also address adjusting Saturday operating hours in certain reading rooms in response to low
demand.

I.      Library Services and the Law Library Should Obtain
        More Accurate and Useful Reading Room Usage Data

The accuracy and consistency of reference statistics could be improved by using sampling
techniques to count reading room patrons.

        A.       The Accumulation of Library Services and Law
                 Library Reference Statistics Should Be Improved

There is a long-standing pattern of inconsistent reading room statistical practices. Internal
committees have reviewed the accumulation and reporting of statistics and as a result, several
useful changes have been implemented. However, inconsistencies and inaccuracies remain.
The following are examples of inconsistencies that, in some cases, contribute to inaccuracies in
reading room statistics:

        •      Patrons are counted hourly by some and by sign-in sheets (when entering) by
               others;
        •      Directional questions are counted by some, estimated by others, and not counted by
               a few; and
        •      Some personnel who do the counting are unclear on the definition of a reference
               question versus a directional question.

Inconsistent patron counting methods hinders comparison among reading rooms as discussed in
finding I.B. on the next page. The accumulation and reporting of directional questions is time
consuming and the usefulness of this data is questionable. Managers stated that they are not sure
why these statistics are accumulated, and to their knowledge, are not used for any management
purpose.

There is a high volume of reference questions in some reading rooms and a considerable amount
of staff resources are consumed in recording these questions. For example, the Newspaper &
Current Periodical reading room reported answering approximately 20,000 in-person reference
questions and 4,300 directional questions in the fourth quarter of FY 2002. The use of sampling
could improve the reliability and efficiency of reference counts and create greater uniformity
across reading rooms.



                                                 6
The Library of Congress                                            Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                            March 2004


The American Library Association recommends various methods to accumulate reference
statistics and Library Services and the Law Library have adopted some of them. However, many
libraries operate in environments significantly different from the Library of Congress and
accumulate reference statistics for different reasons. For example, patrons visiting local libraries
browse for books. The Library's patrons cannot browse for books and the nature of reference
questions could be different.

Prior internal committees have studied these issues and recommended that the Library
consistently accumulate statistics and use sampling techniques. These recommendations were
not implemented because of disagreements among the reading rooms. For example, several
reading room managers responded that they did not want to count directional questions because
the information was meaningless. Sampling was not implemented because there are some start-
up costs associated with developing a statistically valid sampling plan.

Recommendations

Library Services and the Law Library together should:

1.      Develop a uniform sampling methodology that accumulates periodic reference statistics
        for all of the Library's public reading rooms.

2.      If there is no demonstrated need, eliminate actual counts of directional questions. An
        estimate can be employed for this figure based on actual amounts, and periodic updates
        utilized for future estimates.

Service Unit Responses and OIG Comments

Library Services did not address these recommendations. The Law Library replied that it
supports the recommendation that all reading rooms in Library Services and the Law Library
develop and utilize consistent statistical capture and reporting mechanisms, including
standardized use of valid statistical sampling methods.

        A.       Library Services and the Law Library Should Count
                 Reading Room Patrons in a More Useful Manner

The Library is expending considerable effort to perform hourly patron counts that produce
misleading statistics. Not all reading rooms count hourly and therefore management cannot
compare reading room counts. Inconsistent methods may also make it more difficult to analyze
resource requirements.

Hourly counting results in a much higher number than the actual number of patrons visiting a
reading room, although, some senior-level managers believe that the hourly counts equate to the
number of visiting patrons. With hourly counting, the same patron can be counted multiple
times if present in the reading room for more than an hour. Conversely, a patron who remains
for less than an hour may not be counted. Also, there is no clear guidance on who qualifies as a
patron. Some reading rooms count interns and Library employees as patrons, others don't.



                                                 7
The Library of Congress                                                      Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                      March 2004


We analyzed the hourly counting methodology to determine how statistics developed by reading
room personnel compared to the actual number of in-person visitors received by the Library. We
compared data developed by the reading rooms to our in-person observations in five reading
rooms over a three-week period. Our analysis included the Manuscript and four Area reading
rooms.3 We found that on average, each patron visiting the Library was included in three hourly
counts.

Hourly counting can be very useful in determining when patrons are visiting, but misleading as
an indication of the number of in-person readers coming to the Library. Also, hourly counting
statistics are only accumulated for the total number of patrons for the quarter; they are not
accumulated for capacity utilization at a given time during the day, or day of the week. Capacity
utilization could be useful to identify periods of nonuse or peak periods of patron usage.

The American Library Association recommends hourly counting. The Library adopted this
method of counting although it has a greater percentage of patrons performing research than
many other libraries. In the research environment, patrons remain in the reading room longer
and the hourly counting easily overstates in-person visits.

Library management encourages reading room managers to bring more people to the Library.
Many reading room managers feel that requiring patrons to sign-in would disturb them and
provide another reason for not visiting, although reading rooms that currently have sign-in
requirements have not reported disturbances or troubles with the sign-in forms.

Recommendations

1.        The Law Library and Library Services should utilize a non-invasive sign-in form or other
          acceptable method to measure reading room utilization that will provide utilization data
          by the time of day, etc. Sampling should be considered.

2.        Whichever counting method is selected, all reading rooms should employ it so that
          management can fairly compare statistics and make informed resource decisions.

Service Unit Responses and OIG Comments

Library Services did not address these recommendations in their formal response to the
draft report. However, in its response to our notice of findings and recommendations (our
preliminary conclusions communicated last Fall), Library Services agreed that standardization of
counts and definition of terms is necessary and suggested scanning reader identification cards as
an alternative to a sign-in-form. The Law Library also agreed with our finding stating that
counting patrons on an hourly basis is labor intensive and does not provide useful statistical
information about the number of people who use the reading rooms. The Law Library also
suggested using card reader technology. Regardless of the method chosen to collect the
statistics, we believe that standardizing the counts of in-person readers will provide more
accurate and useful data to determine resource requirements.

3
    The four Area reading rooms include Asian, African and Middle Eastern, European, and Hispanic.



                                                         8
The Library of Congress                                                  Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                  March 2004


II.               Library Services, CRS, and the Law Library
                  Should Analyze Reading Room Requirements

The Service Units should analyze their needs for accommodating visiting patrons and reference
resources and use the results to reevaluate use of floor space. The Service Units should also
reevaluate Saturday operating hours.

                  A.       Reading Room Space Should Be Used More Efficiently

Most of the Library’s reading rooms have been in the same physical location for many years and
space requirements have not been formally reevaluated, although the number of in-person
reference questions have declined 65 percent since FY 1988 and continue to decline as shown in
Figure 4. The data is based on actual in-person reference questions, which are related to the
number of visiting patrons as shown in Table 2 on page 10. The two tables in Appendices A and
B, pages 16 and 17, show more detailed in-person reference statistics for individual reading
rooms for 10 and 15 year periods. See accompanying notes for qualifications of the data.
Although there has been a decline in in-person questions/visitors taken as a whole, the numbers
in some reading rooms has declined more rapidly than others. Table 2 shows some of the largest
reductions in visiting patrons from FY 1998 to FY 2002 as measured by hourly in-person counts
by Service Unit staff.

Figure 4. Total In-Person Reference Questions (Fiscal Years)




                  1,500
      Questions




                  1,200

                   900

                   600

                   300

                       0
                           1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002




Although the four Area reading rooms have experienced little or no patron decline since FY
1998, the rooms have a modest number of visiting patrons. Many of the reading rooms,
particularly the Area reading rooms, have stepped up efforts to increase patron visits. Outreach
efforts include public tours; lunch seminars; promotional mailings; participation in professional
societies; and contacts with book publishers, universities, and embassies to bring in researchers,



                                                         9
The Library of Congress                                                      Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                      March 2004


authors, university classes, and embassy officials. The Library recently contracted with a
consultant to develop and implement a plan to increase local universities’ use of the reading
rooms.

Table 2. Counts of Visiting Patrons in Selected Reading Rooms (Notes 1 & 2)

  Reading Room              FY 1998        FY 1999          FY 2000        FY 2001         FY 2002         Notes
       Asian                 8,546          5,497            5,625          5,177           3,416           2
 African & Middle                                                                                           2
      Eastern                  N/A           8,815            9,799         8,921           7,921           3
     European                 7,660          7,577           11,024          9,340           8,501          2
     Hispanic                 2,797          2,641            3,141          2,927           2,921
    Microform                34,303         22,590           19,427         17,312          16,174            2
 CRS – LaFollette             7,962          5,761            4,571          3,823           2,163
 CRS – Jefferson                                                                                              4
  Congressional               204             224             83             54              63
       Main                 221,662         207,950         199,721        191,480         159,274            2
 Performing Arts              N/A            6,665           6,750          6,771           6,077             3
    Geography
      & Map                   5,926          5,116           4,303           3,870          3,139
   Law Library                 N/A            N/A             N/A             N/A            N/A             3
     Prints &
   Photographs                8,304          7,312           6,377           5,149          4,499
  Motion Picture
   & Television               3,371          2,522           2,400           2381           2,147
    Rare Book                 3,947          3,359           3,397           3,363          3,219

    Note 1: All patron numbers and reference statistics in this report were provided by Library management and
    could not be audited because of internal control weaknesses in the design of the Library's overall counting
    methodology. Specifically, there are varying methods employed by the reading rooms for collecting the data,
    and we could not verify its accuracy.
    Note 2: The numbers for these reading rooms were determined by counting people in a reading room each
    hour. We determined that this counting methodology is not an indication of the number of patrons who visit the
    Library. We found that hourly counts result in the same patron getting counted three times. See finding I.B. on
    page 7 for more information on the counting methodology.
    Note 3: 'N/A' indicates that information is not available.
    Note 4: CRS designated the Jefferson Congressional reading room as a Member-only facility in FY 2000.

Reading rooms whose use has declined substantially may underutilize the floor space they
occupy. Fewer visitors to the Library means that user requirements are changing, and that the
Service Units should rethink the need for reading room space in light of rapid growth in digital
information and electronic communication, and also reconsider the skill sets of Library personnel
that operate the reading rooms and field reference questions. More efficient use of reading
rooms combined with any additional underutilized space identified in our upcoming audit of
Library-wide space planning could free-up needed space for collections storage and/or offices.
Also, consolidation of off-site activities in leased facilities such as the Taylor Street Annex could
result in considerable savings. There have been several internal proposals that recommended



                                                       10
The Library of Congress                                           Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                           March 2004


different scenarios for merging reading rooms, however, none were implemented due to apparent
disagreements between Service Units/Subunits on which mergers or consolidations should take
place.

The decline in in-person patrons can be attributed in part to alternative sources of information,
and the difficulty in traveling to Washington D.C. to visit Library reading rooms. Alternative
sources of information include other libraries and the Internet. For example, some Area Studies
patrons formerly came to the reading rooms to access foreign newspapers. Reading room
personnel stated that they have noticed a decline in these patrons because these newspapers are
now available online. The University of Texas put the Gutenberg Bible on the Internet, making
it easier for scholars and others to browse one of the Library’s most valuable books.

By the end of FY 2003, there were 8.5 million American historical items available on the
Library’s website. Also, the availability of local, regional, and university libraries that share
books and information through the Online Computer Library Center (described in footnote 2 on
page 3) contributes to the decline in patron visits to Library reading rooms. The number of ‘hits’
on the Library’s websites has steadily increased as the Library makes its resources more widely
available. In FY 2003 there were 2.6 billion hits, up from 2 billion and 1.3 billion in FY 2002
and FY 2001 respectively.

The General Services Administration’s Office Space Use Review (in Federal Agencies),
September 30, 1997, states “there is value in bringing key issues to Federal agencies’ attention,
encouraging the incorporation of space use objectives into the strategic planning process,
measuring space use performance, and letting agencies manage accordingly. Each agency
should measure and control its space use as a responsible manager of taxpayer funds.” The
Library’s strategic plan states that to accomplish its mission, space should be allocated to
maximize efficiency and productivity.

Library Services has implemented some modifications to its reading rooms over the last few
years such as closing the Machine Readable Collections Reading Room and incorporating this
activity into existing rooms; eliminating the plan for the Special Materials Reading Room, and
instead incorporating it into an existing room; eliminating plans for a separate Children’s
Literature Center Reading Room; and merging science and business into one reading room. The
Law Library recently converted some of its reading room space to offices and CRS will examine
LaFollette reading room usage and consider utilizing the reading room for additional internal
support to CRS analysts, however, more needs to be done on a Library-wide scale.

The Library does not have formal criteria to establish reading room requirements and therefore
has not fully responded to the declining number of in-person reference questions and visiting
patrons. The Office of the Inspector General conducted a brief review of space planning in 2002,
and in a memorandum to the Deputy Librarian we reported, “the Library has not developed a
systematic and strategic approach to space management. Facility Services has not evaluated
whether space is efficiently utilized, determined what space is expected to become vacant or how
the space should best be used, and lacks the organizational authority to implement and enforce
such a plan.” To complement this audit, our office will soon begin a more comprehensive




                                                11
The Library of Congress                                             Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                             March 2004


analysis of Library-wide space planning. We expect to make recommendations as a result of the
audit that will help Facility Services establish criteria for evaluating and improving Library-wide
space utilization.

Recommendations

CRS, the Law Library, and Library Services should perform a structured requirements analysis
to determine reading room floor space requirements including:

1.      Developing a decision model for determining reading room space requirements. The
        model should consider:

        A.     Trends of reading room use as analyzed using a consistently applied counting
               methodology;

        B.     Unique or changing patron needs for varying material formats;

        C.     Collections growth and security;

        D.     Trends in the availability of free online resources available to people at home; and
               subscription-based research information available at Library of Congress,
               college/university, and public library reading rooms;

        E.     The marginal cost/benefit and impact of additional outreach efforts and whether
               outreach should be increased and/or more narrowly focused;

        F.     The need for hardcopy reference materials and related shelf space in reading rooms,
               and electronic workstations;

        G.     The future of librarian duties and staffing considering the growth of information
               and technology aids;

        H.     Any additional social, economic, or other forms of considerations or assumptions
               (and the basis for them);

        I.     Hours of service;

        J.     The feasibility of combining certain reading rooms, including reconsideration of
               previous recommendations made by Library Services; and

        K.     The cost/benefit, including the pay back period, of converting any reading room
               space to office/operations or storage space. This analysis should be coordinated
               with the Library’s Integrated Support Services.




                                                  12
The Library of Congress                                           Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                           March 2004


2.      Using the decision model to make decisions about reading room, office space, and
        storage requirements:

        A.     Set up time frames to establish the counting methodology, study reading room
               requirements, and make decisions;

        B.     Gather data; and

        C.     Analyze the data and make decisions about how to best satisfy patron requirements
               and efficiently utilize the Library’s floor space.

Service Unit Responses and OIG Comments

CRS responded that it is currently reviewing the need for reading rooms and research centers as a
part of a larger effort to reorganize information service functions in CRS. Library Services
commented that the OIG failed to consider that reading rooms often have requirements outside of
strict reader counts, most significantly the need for adjacency of the reading room to the
collections. Additionally, Library Services stated that it modified some of its readings rooms
over the last few years, in response to recognizable shifts in the way research is conducted onsite
and through the Library’s web site. However, these modifications were not included in the draft
audit report.

The Law Library responded that it recently requested a thorough space utilization analysis and
redesign of its reading room consistent with readership trends, collections growth, technological
changes in accessing information, and collection security requirements. Further, it began re-
engineering the function and role of its reference librarians in 1989 by slowly expanding the
scope and nature of work assignments in order to enhance client services.

We commend CRS, Library Services, and the Law Library for their efforts to address evolving
reading room needs over the last several years. However, a consolidated, more structured
analysis and decision making process is needed to ensure that the Library has accurate, current,
and useful information for efficient use of all reading rooms. Together, the Service Units should
develop an action plan that outlines a structured and detailed examination of reading room
requirements.

We agree with Library Services that the adjacency of reading rooms to the collections is an
important factor that should be included in the analysis as an additional consideration as
recommended in 1.H. on the previous page. We added to the report the modifications that
Library Services made to its reading rooms over the last few years.




                                                13
The Library of Congress                                           Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                           March 2004


        B.       The Service Units Should Reconsider Saturday Reading Room Hours

The Library has Saturday operations in the following 11 reading rooms: Business Reference,
Computer Catalogue, LaFollette, Law Library, Local History & Genealogy, Main, Manuscript,
Microform, Newspaper & Current Periodical, Performing Arts, and Science Reference.

The Saturday operations for most of the reading rooms are very busy, however, the Microform,
LaFollette, and Performing Arts rooms show limited use. For the same reasons that in-person
reading room patronage is declining during the week, Saturday patron visits in some rooms are
also declining. For example, the Performing Arts reading room averaged 11.5 patrons per
Saturday over the 13 weeks prior to July 26, 2003. The same reading room averaged 17.5
patrons in the preceding 48-week period. We were unable to determine whether cyclical or
seasonal variations were responsible for the difference. We observed very few patrons in the
LaFollette and Microform reading rooms during our Saturday visits.

The Microform reading room is staffed with one employee and the LaFollette and the
Performing Arts reading rooms are staffed with two weekend employees. Adjusting the reading
room hours of operations could produce savings by eliminating employee labor and fringe
benefit expenses for hours worked on Saturdays. Staff could work during the regular Monday
through Friday schedule allowing management to make changes in current staff configurations
for more efficient operations.

The Standards for Internal Controls in the Federal Government (GAO/AIMD-00-21.3.1),
November 1999, states that internal controls should provide reasonable assurance that the
effectiveness and efficiency of operations are achieved, including the use of the entity’s
resources.

The Library does not have uniform policies and procedures for identifying criteria for evaluating
or changing reading room hours of operation. Many of the reading room hours have been in
effect for many years and several reading rooms do not accumulate and report Saturday patron
statistics.

Recommendations

CRS, the Law Library, and Library Services should:

1.      Establish criteria for determining requirements for Saturday operations and a decision
        model for establishing hours of operation;

2.      Establish a timeframe to study user needs;

3.      Accumulate Saturday statistics including seasonal and/or cyclical and hourly fluctuations,
        with special emphasis on the Microform, LaFollette, and Performing Arts reading rooms;
        and

4.      Analyze the data and make decisions about hours of operation.



                                                14
The Library of Congress                                             Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                             March 2004


Service Unit Responses and OIG Comments

Both CRS and the Law Library stated that they are obligated by statute to provide services when
Congress is in session. CRS staff work on complex requests, write reports, and update web
pages when they are not serving Congressional clients. Also, whether or not there are in-person
users on Saturday, CRS would still have to have staff there to answer the phone and reply to
inquiries. Library Services replied that it planned to look at Saturday hours but did not believe
that eliminating Saturday service would result in cost savings. We concur that it is not feasible
for CRS and the Law Library to eliminate Saturday operations, however, the feasibility of
reducing Saturday hours should be considered if it is determined during the analysis that there is
insufficient activity to justify current operating hours. For example, analysis may show that
there is little or no activity during the first or last hour or more of Saturday operations. We also
believe that Library Services should review its requirements for Saturday operations. A
reduction in Saturday hours would reduce total resources devoted to staffing reading rooms and
result in a corresponding reduction in staffing expenses.

Major Contributors to This Report:

        Anita Scala, Assistant Inspector General
        Stuart G. Axenfeld, Auditor




                                                 15
     The Library of Congress                                                   Final Audit Report No. 2003-PA-104
     Office of the Inspector General                                                                   March 2004


                                                                                                     Appendix A

                 Annual In-Person Reference Statistics by Reading Room, FY 1993-2002


    READING ROOM          1993         1994    1995      1996      1997      1998      1999      2000       2001       2002
African &
Middle Eastern           12,222    12,116     11,470     8,808     9,765     9,885     9,937      6,222     7,203      7,655
American Folklife         1,099     1,797      2,065     2,001     2,176    5,619     3,725      4,008     3,518       3,249
Asian                    12,671    11,954     10,191    10,904    13,255    12,288    10,569     10,686    11,282      5,671
Children’s
Literature                259          188     227       190       160       121        99        178       251        112
Collections Access,
Loan, & Mgt.4            44,532    33,284     36,230    40,449    37,905    35,300    23,163     18,954    17,882     16,824
European                 6,516      8,794      6,661     6,599     6,074    7,795     7,823      9,370     9,338      7,232
Geography & Map          27,924    26,392     28,889    24,709    23,852    30,745    26,444     21,135    19,463     15,764
Hispanic                 22,883    18,369     21,295    23,856    23,488    26,408    29,530     33,771    10,082     13,197
Humanities &
Social Sciences         190,438    187,329    183,493   165,308   164,790   141,722   128,769   97,243     85,929     70,163
Law Library              95,268    81,000     67,277    70,484    48,090     85,919    83,542   84,991     75,209     66,057
Manuscript               33,339    33,228     32,974    29,818    28,046     38,923    37,805   40,495     47,046     45,583
Motion Picture           26,455     9,058      15,686    6,998     6,674     7,542     4,314     4,122      3,865      3,693
Newspaper &
Current Periodical      141,902    121,770    121,914   105,532   108,661   126,385   124,846   106,750   112,619     89,386
Performing Arts         25,295      19,346     14,832    10,439    5,659     7,795     6,352     8,811     8,238       7,037
Prints &
Photographs              53,227    48,368     45,950    41,820    40,472    41,522    36,056     31,885    25,745     22,495
Rare Book &
Special Collections      4,850      4,899      4,938     5,417     5,136     4,989     2,998     4,623     3,130       2,560
Science & Business      67,974      42,456     42,962   110,624   103,180    51,073    31,956    60,879    50,684      51,890
   TOTAL                766,854    660,348    647,054   663,956   627,383   634,031   567,928   544,123   491,484     428,568


All patron numbers and reference statistics here and elsewhere in this report were provided by Library
management and could not be audited because of internal control weaknesses in the design of the Library's
overall counting methodology. Specifically, there are varying methods employed by the reading rooms for
collecting data, and we could not verify its accuracy. Also, the reference statistics include in-person questions,
and do not include e-mails, phone calls, or handwritten correspondence. All figures from this table were taken
from the statistical tables of the Library’s annual reports.

The Main Reading Room numbers are included in the Humanities and Social Sciences Reading Room. CRS
reference statistics were not included in the annual reports and are not included in this appendix, and a number
of other reading rooms are not presented separately because they are combined by the Library for annual
reporting purposes.

4
  Although we did not include the Collections Access, Loan and Management Division as a reading room or information
center in the scope of our audit, we added it here and in Appendices B and C at the request of Library Services.




                                                           16
The Library of Congress                                                 Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                                 March 2004

                                                                                            Appendix B

              In-Person Reference Statistics in Five-Year Intervals, FY 1987-2002

     READING ROOM                             1987            1992            1997          2002
     African & Middle Eastern                10,553          11,723           9,765         7,655
     American Folklife                       14,300           1,600           2,176         3,249
     Asian                                   14,703          13,864          13,255         5,671
     Children’s Literature                     440             434             160           112
     Collections Access,
     Loan, & Management                      30,138          37,484          37,905         16,824
     European                                 15,559          3,622           6,074          7,232
     Geography & Map                          16,939         17,094          23,852         15,764
     Hispanic                                 15,573         12,949          23,488         13,197
     Humanities & Social Sciences            315,585        212,617         164,790         70,163
     Law Library                             547,760        143,087          48,090         66,057
     Manuscript                               10,596         33,235          28,046         45,583
     Motion Picture                           20,401         21,860           6,674          3,693
     Newspaper &
     Current Periodical                      99,283         154,321         108,661         89,386
     Performing Arts                         15,456          16,675           5,659          7,037
     Prints & Photographs                    41,969          45,730          40,472         22,495
     Rare Book &
     Special Collections                     5,910            4,518          5,136           2,560
     Science & Business                      27,127          78,975         103,180         51,890
         TOTAL                             1,202,292        809,788         627,383        428,568

All patron numbers and reference statistics here and elsewhere in this report were provided by Library
management and could not be audited because of internal control weaknesses in the design of the
Library's overall counting methodology. Specifically, there are varying methods employed by the reading
rooms for collecting data, and we could not verify its accuracy. Also, the reference statistics include in-
person questions, and do not include e-mails, phone calls, or handwritten correspondence. All figures
from this table were taken from the statistical tables of the Library’s annual reports.

The Main Reading Room numbers are included in the Humanities and Social Sciences Reading Room.
CRS reference statistics were not included in the annual reports and are not included in this appendix, and
a number of other reading rooms are not presented separately because they are combined by the Library
for annual reporting purposes.




                                                    17
The Library of Congress                                             Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                             March 2004



                                                                                        Appendix C
                                                                                         (Page 1 of 3)

                       Reading Room and Information Center Descriptions


1. African & Middle Eastern Reading Room—Provides reference services pertaining to
publications of all areas of Africa south of the Sahara. Materials in the Middle Eastern
languages (e.g., Arabic) are also serviced here.

2. American Folklife Center⎯Provides access to the Library's extensive collection of non-book
folklore materials.

3. Asian Reading Room⎯Provides reference services for and access to all materials, except law,
in the languages of China, Japan, Korea, and southern Asia.

4. Business Reference Services⎯Provides assistance in the fields of business and economics and
maintains a reference collection of over 20,000 volumes.

5. Collections Access, Loan and Management Division—Provides special search services in the
general reading rooms for items not located when initially requested and advance reserve for out
of town researchers who wish to know whether the material they need is available, and to have it
held for their arrival.

6. Children’s Literature Center⎯Serves those organizations and individuals who study,
produce, collect, interpret, and disseminate children's books, films, television programs, or other
forms of materials destined for children's information and recreational use, usually outside the
classroom.

7. Computer Catalogue Center⎯Maintains workstations for searching the Library's online
catalog. These workstations also provide general access to the Internet, including a number of
Internet-based subscription services. The Center has dedicated workstations for searching the
Main reading room CD-ROM network, as well as special equipment for researchers with
disabilities.

8. European Reading Room⎯Provides reference services and programs pertaining to the
cultural, political, and socioeconomic life of all areas of Europe except the British Isles, Spain,
and Portugal.

9. Geography & Map Reading Room⎯Provides reference assistance for and access to special
collections on geography and cartography, including the largest map collection in the world of
over four million pieces.




                                                 18
The Library of Congress                                             Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                             March 2004



                                                                                        Appendix C
                                                                                         (Page 2 of 3)

10. Hispanic Reading Room⎯Offers reference and bibliographic services pertaining to Spain,
Portugal, Brazil, the Caribbean, and Spanish-speaking America.

11. Jefferson Congressional Reading Room⎯Reserved for use by Members of Congress.

12. LaFollette Congressional Reading Room⎯Reserved for use by Members of Congress, their
families, and their staff members.

13. Law Library Reading Room⎯Provides reference assistance and access to the Law Library
collection, one of the most comprehensive collections of legal materials ever developed, in all
languages and covering all legal systems, from ancient to modern. International and foreign law
service is provided through the reading room or in specialized divisions.

14. Local History & Genealogy Reading Room⎯Provides reference assistance and access to
comprehensive collections in the fields of U.S. local history, genealogy, and heraldry.

15. Main Reading Room⎯Serves as the primary entrance into the Library's research collections,
and the principal reading room for work in the social sciences and humanities. It provides access
to and assistance in using approximately 70,000 volumes of print reference works, a wide variety
of CD-ROM and online databases, and a number of bibliographies and guides to the Library's
collections.

16. Manuscript Reading Room⎯Makes available for inspection and study over 35 million
manuscripts and documents, including the personal papers of 23 presidents and the papers of
such other great Americans as Clara Barton, Alexander Graham Bell, Felix Frankfurter,
Benjamin Franklin, Alexander Hamilton, John J. Pershing, Booker T. Washington, and Walt
Whitman.

17. Microform Reading Room⎯Provides delivery of, and facilities for viewing, items from the
Library's general microform collection of over four-and-one-half-million pieces. These holdings
include preservation monographs and serials, as well as specialized collections containing early
imprints, manuscripts, early state records, pamphlets, doctoral dissertations, dramas, statistical
publications, press summaries, transcripts and/or translations, trade catalogs, inventories of
libraries and archives, biographies, and oral histories. The materials available cover all subject
areas, but focus on the humanities and social sciences.

18. Motion Picture & Television Reading Room⎯Offers reference service for the Library's
collections of films and television materials. Access to items in the collections is restricted to
scholars doing research beyond the undergraduate level.




                                                 19
The Library of Congress                                            Final Audit Report No. 2003-PA-104
Office of the Inspector General                                                            March 2004



                                                                                      Appendix C
                                                                                       (Page 3 of 3)

19. Newspaper & Current Periodical Reading Room⎯Provides reference assistance and access
to all newspapers, current and retrospective, whether in print or microform, and in languages
using Roman script, excluding all issues in Asian and Middle Eastern languages and all current
issues of Slavic-alphabet materials. This reading room also provides access to current unbound
issues of serials and periodicals except those in music and law, with the same language
restrictions indicated above. Current and retrospective federal documents in the U.S. Depository
Library Program are also available, along with United Nations depository materials, both current
and retrospective.

20. Performing Arts Reading Room⎯Provides reference assistance for and access to music
materials in the custody of the Music Division, including rare books and manuscripts, special
collections of personal and organization archives, printed scores, literature about music, and
microforms. Major holdings include manuscripts by virtually all important composers from the
eighteenth century to the present, opera full scores, vocal scores, librettos, and American popular
sheet music. Facilities for audio playback of sound recordings are available in conjunction with
the reference service offered in a contiguous reading room, the Recorded Sound Reference
Center.

21. Prints & Photographs Reading Room⎯Provides reference assistance and delivery of
materials for pictorial items such as prints, drawings, posters, photographs, fine and graphic arts,
and pictorial documentation of American history and American architecture.

22. Rare Book & Special Collections Reading Room⎯Offers reference assistance for and access
to rare books, rare Bibles, pamphlets, and special collections in such areas as gastronomy,
Lincolniana, and magic. The division also houses the libraries of such persons as Susan B.
Anthony, Thomas Jefferson, Theodore Roosevelt, and Woodrow Wilson.

23. Recorded Sound Reference Center⎯Provides reference assistance pertaining to sound
recordings, including radio, and access to the Library's vast audio collections. Commercial
recording highlights include extensive opera, chamber music, and American popular music
collections. Significant radio collections include material from NBC Radio, National Public
Radio, and the British Broadcasting Corporation.

24. Science Reading Room⎯Provides reference service in all fields of science and technology,
with a reference collection of over 10,000 volumes and access to all major indexing and
abstracting services in the fields of science and technology. Current issues of selected science
journals and a large technical reports collection are also available.




                                                 20
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix D
                                                            (Page 1 of 4)




                                  21
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix D
                                                            (Page 2 of 4)




                                  22
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix D
                                                            (Page 3 of 4)




                                  23
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix D
                                                            (Page 4 of 4)




                                  24
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix E
                                                            (Page 1 of 2)




                                  25
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix E
                                                            (Page 2 of 2)




                                  26
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix F
                                                          (Page 1 of 5)




                                  27
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix F
                                                            (Page 2 of 5)




                                  28
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix F
                                                            (Page 3 of 5)




                                  29
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix F
                                                            (Page 4 of 5)




                                  30
The Library of Congress                Final Audit Report No. 2003-PA-104
Office of the Inspector General                                March 2004



                                                        Appendix F
                                                            (Page 5 of 5)




                                  31
